No.
Nancy D-Massenburg
Petitioner
v.
Innovative Talent Solutions, Inc.
Lee Air Conditioners, Inc.
Respondents, et al.
CERTIFICATE OF COMPLIANCE
I certify, as required by Supreme Court Rule 33.1
and 14.1 that the PETITITON FOR WRIT OF
CERTIORARI in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33,
being prepared in Century font, 12 point for the text. This
brief contains 8, 933 words, excluding the parts exempted
by Supreme Court Rule 33.

Nancy D-Massenburg
PO Box 224
Blairs, Va. 24527
919.400.2033
City/County o

i'mpW

ommonwealth/St
d before me this C
my hand and official seal.

^Notary Public
m

I

<

KAYLA EMON DONIGAN
Notary Public
Commonwealth of Virginia
Registration No. 7751223
My Commission Expires Jan 31. 2021

